V

NO:
IN THE SUPREME COURT OF THE UNITED STATES
Ellis Keyes, Petitioner,
versus
Matt Wilson,
City of Fort Payne, Alabama, Respondent.
PROOF OF SERVICE
I, Ellis Keyes, declare that on this 1st day of December, 2020, I have
served the enclosed MOTION FOR LEAVE TO PEOCEED IN FORMA
PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each-party or
that parties counsel and on every other person required to be served, by
depositing an envelope containing the above document in the United
States mail properly addressed to each of them and with first-class postage
prepaid, return receipt, the names of those served are as follows: City of
Fort Payne, Alabama, 100 Alabama Ave NW. Fort Payne, AL
35967; Governor Kay Ivey ,600 Dexter Avenue, Montgomery, AL 36130
And Alabama Attorney General, 501 Washington Ave, Montgomery, AL
36104.
I declare under penalty of perjury the foregoing is true and correct.
Executed on December 1st., 2020.

Ellis Keyes, Propria Persona
P O Box 1073
Whitesburg, KY 41858-1073
(606) 821-9815
elliskeyes@vahoo.com

